               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Fiscal Year 2013 Postal Service
         Financial Statements Audit –
        St. Louis Accounting Services

                       Audit Report




                                              March 20, 2014

Report Number FT-AR-14-009
                                                                         March 20, 2014

                                                      Fiscal Year 2013 Postal Service
                                                         Financial Statements Audit –
                                                       St. Louis Accounting Services

                                                         Report Number FT-AR-14-009



BACKGROUND:
The U.S. Postal Service St. Louis            examination of key financial reporting
Accounting Services is responsible for       controls.
accounting functions related to money
orders, real property, international mail,   We did not propose any account
transportation, field sales, and accounts    adjustments; however, we found the
payable. The Postal Service’s Financial      automated travel system was not
Testing Compliance group examines            designed to automatically return travel
key financial reporting controls. Our        expense reports to St. Louis Accounting
objectives were to determine whether         Services’ personnel for follow up to
St. Louis Accounting Services:               ensure travelers addressed initial
                                             concerns. Rather, expense reports went
   Accounting transactions were fairly      to payment. Without appropriate follow-
    stated and selected controls were        up review, the Postal Service risks
    designed and operating effectively.      making improper reimbursements to
   Ensured account balances followed        travelers.
    the Postal Service’s general
    classification of accounts consistent    In addition, the Postal Service could
    with that of the previous year.          reduce costs associated with foreign
   Complied with laws having a direct       currency conversion for international
    and material effect on the financial     travel. Travelers paid between 1.1 and
    statements taken as a whole.             4.9 percent in fees for foreign currency
                                             conversions and may not be aware that
We also determined whether the               they can decline the conversion fee
Financial Testing Compliance group           portion of the transaction. Although the
properly tested, documented, and             savings would be minimal, management
reported key financial reporting controls.   recognizes the opportunity and is taking
                                             action to inform travelers how to
WHAT THE OIG FOUND:                          eliminate this fee.
St. Louis Accounting Services’
accounting transactions were fairly          WHAT THE OIG RECOMMENDED:
stated and account balances conformed        We recommended management modify
to the general classification of accounts.   the travel system to return resubmitted
In addition, it complied with laws having    expense reports for review and revise
a direct and material effect on the          official travel policy to direct employees
statements. Finally, the Financial           to decline merchants’ offers of foreign
Testing Compliance group properly            currency conversion.
tested, documented, and reported its         Link to review the entire report
March 20, 2014

MEMORANDUM FOR:            SCOTT G. DAVIS
                           ACTING VICE PRESIDENT, CONTROLLER

                           JOHN T. EDGAR
                           VICE PRESIDENT, INFORMATION TECHNOLOGY




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Fiscal Year 2013 Postal Service Financial
                           Statements Audit – St. Louis Accounting Services
                           (Report Number FT-AR-14-009)

This report presents the results of our audit of the selected financial activities and
accounting records at the U.S. Postal Service Accounting Services in St. Louis, MO, for
the fiscal year ended September 30, 2013 (Project Number 13BM002FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michelle V. Lindquist, acting
director, Finance, or me at 703-248-2100.

Attachment

cc: Julie S. Moore
    Corporate Audit and Response Management
Fiscal Year 2013 Postal Service Financial Statements Audit –                                                       FT-AR-14-009
 St. Louis Accounting Services




                                            TABLE OF CONTENTS
Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Electronic Travel Voucher Expense Report Accounting Review ..................................... 2

International Travel Foreign Currency Expenses ............................................................ 3

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objectives, Scope, and Methodology .......................................................................... 6

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Management’s Comments .......................................................................... 9
Fiscal Year 2013 Postal Service Financial Statements Audit –                                             FT-AR-14-009
 St. Louis Accounting Services



Introduction

This report presents the results of our audit of the selected financial activities and
accounting records at the U.S. Postal Service Accounting Services in St. Louis, MO, for
the fiscal year (FY) ended September 30, 2013 (Project Number 13BM002FT000).

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service's financial statements. In addition, the Sarbanes-Oxley (SOX) law was
enacted in 2002 to strengthen public confidence in the accuracy and reliability of
financial reporting. Section 404 of SOX requires management to state its responsibility
for establishing and maintaining adequate internal controls over financial reporting. The
Postal Accountability and Enhancement Act of 2006 requires the Postal Service to
comply with Section 404 of SOX. The Postal Service Board of Governors (Board)
contracted with an independent public accounting firm (IPA) to express an opinion on
the Postal Service's financial statements and internal controls over financial reporting.
Our audit augments the IPA’s opinions.1 See Appendix A for additional information
about this audit.

Conclusion

During our audit of St. Louis Accounting Services we noted:

   Accounting transactions were fairly stated in the general ledger and selected key
    controls surrounding those transactions were designed and operating effectively.

   General ledger account balances conformed to the general classification of accounts
    of the Postal Service on a basis consistent with that of the previous year.

   The Postal Service complied with laws and regulations having a direct and material
    effect on the financial statements as a whole.

Finally, the Financial Testing Compliance group properly tested, documented, and
reported its examination of key financial reporting controls. We did not propose any
adjustments or identify any issues that were material to the financial statements or that
would affect the overall adequacy of internal controls. However, throughout the year, we
reviewed internal controls over financial reporting and identified a control deficiency2
regarding the Electronic Travel Voucher (eTravel) System.3 Specifically, the eTravel

1
  The IPA maintains overall responsibility for testing and reviewing significant St. Louis Accounting Services’ accounts
and processes. The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work with the IPA to
ensure adequate coverage.
2
  A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent, or detect and correct, misstatements on a timely
basis.
3
  A web-based system to electronically create travel expense reports.
                                                             1
Fiscal Year 2013 Postal Service Financial Statements Audit –                                        FT-AR-14-009
 St. Louis Accounting Services


system did not automatically return travel expense reports4 for follow-up review by St.
Louis Accounting Services to ensure the traveler adequately addressed initial issues
identified by St. Louis. Rather, the travel expense reports went straight to payment. In
addition, the Postal Service has an opportunity to reduce costs associated with foreign
currency conversion for international travel.

The IPA also identified other control deficiencies affecting St. Louis Accounting Services
that were not in the scope of our audit and are not reported here.5 The IPA informed
management of these issues on November 1, 2013.

Electronic Travel Voucher Expense Report Accounting Review

We judgmentally selected a sample of 25 eTravel expense reports that St. Louis
Accounting Services previously processed and reviewed6 to determine whether
expense amounts corresponded with supporting documentation and whether the reports
were properly approved.7 We determined that St. Louis Accounting Services personnel
properly reviewed these expense reports and returned them to employees (travelers) for
correction, as needed. However, the eTravel system did not automatically return one of
the resubmitted expense reports to Accounting Services personnel to ensure the
traveler adequately addressed the issue identified. Instead, the eTravel system
automatically processed it for payment.

This occurred because the eTravel system was not designed to automatically return
expense reports to Accounting Services personnel for follow-up accounting review.8 In
this specific instance, the expenses were appropriate; however, without follow-up
review, there is a risk the Postal Service will make improper payments to travelers.

As a result of our audit, management:

   Identified and implemented a temporary manual procedure that would return
    resubmitted expense reports for follow-up review. Specifically, the accounting
    specialist who performs the accounting review manually selects an option in eTravel
    titled "Audit Return Flag" before returning the expense report to the traveler.
    Selecting this option results in the system returning the expense report to the
    Accounting Services employee for a follow-up review.

4
  The travel expense report is also referred to as a travel reimbursement request or travel voucher.
5
  For example, the IPA identified that the Surface Air Management Support System Alaska shipper and carrier
modules did not enforce password settings.
6
  As part of the review, the accounting specialist matches each expense from the expense report to supporting
documentation and resolves any exceptions with the individual who submitted the expense report. The accounting
specialist then changes the approval status from "accounting review" to "approved" in eTravel, which triggers
payment of the expense report.
7
  Our audit focused on expense reports the eTravel system automatically selected for accounting review and that
were paid during the period October 1, 2012, through June 30, 2013. From that population, we judgmentally selected
five expense reports with the highest total expense amounts and randomly selected 20 more, for a total of 25
sampled expense reports. Five of the 25 sample items were related to international travel.
8
  The eTravel system automatically selects all international expense reports and expense reports greater than
$15,000, as well as a 1 percent random selection of other expense reports for initial accounting review.

                                                        2
Fiscal Year 2013 Postal Service Financial Statements Audit –                                            FT-AR-14-009
 St. Louis Accounting Services


   Approved a software change request (SCR) to require the eTravel system to
    automatically return resubmitted travel expense reports for follow up when returned
    to the traveler for corrections.

   Updated desk procedures to include the manual process until the SCR is
    implemented.

International Travel Foreign Currency Expenses

Based on our testing of the same 25 eTravel expense reports, we found an opportunity
for the Postal Service to reduce costs associated with international travel. Specifically,
the Postal Service can reduce the currency conversion fees it pays for foreign
transactions.

When an employee travels to a foreign country and uses the government travel card9 to
make a purchase, the merchant or Visa converts the foreign amount to U.S. dollars.
Visa transmits the converted amount to Citibank, which then transmits it to the eTravel
system. Five of the 25 expense reports we audited were for international travel.10 For
these five reports,11 we converted travel expenses12 made in foreign currency to U.S.
dollars using the currency conversion rates13 applicable at the time of the charge. We
then compared the amounts claimed in the eTravel system to our calculated amounts
for reasonableness.

The eTravel amounts were usually between 1.1 and 4.9 percent higher than the
purchase amounts. A portion of the difference is composed of a standard 1 percent
service fee that Visa charges for processing foreign transactions. The remaining portion
of the difference includes a fee the merchant charges its customers for converting
transactions from foreign currency to U.S. dollars.

According to Postal Service personnel, at the time of payment, the merchant may offer
to convert the foreign amount to U.S. dollars. If the traveler chooses that option, the
merchant charges a conversion fee in addition to the standard 1 percent Visa service
fee. If the traveler does not choose that option, there will only be a standard Visa
service fee.

Although the merchant fees identified from the five travel expense reports reviewed are
minimal, management recognizes the potential savings and took action to reduce these
fees. Specifically, management issued an article in the January 23, 2014, Postal Bulletin
advising employees to decline merchants’ offers to convert foreign amounts to U.S.


9
  The Postal Service uses the General Services Administration’s SmartPay Program to administer its travel card
program. Citibank, provider of the travel card for the Postal Service, issues Visa-branded travel cards to Postal
Service employees for use while on official travel.
10
   Three of five international expense reports involved the use of a government travel card to pay for travel expenses.
11
   Some of the expense reports contained more than one foreign currency transaction.
12
   Lodging expenses, for example.
13
   We used one of the currency conversion websites that Postal Service personnel use (x-rates.com).

                                                           3
Fiscal Year 2013 Postal Service Financial Statements Audit –                    FT-AR-14-009
 St. Louis Accounting Services


dollars. We believe this is an interim solution. A long-term solution would be to include
the change in Handbook F-15, Travel and Relocation.

Recommendations

We recommend the vice president, Controller, in coordination with the vice president,
Information Technology:

1. Develop and implement a software solution to require the eTravel system to
   automatically return resubmitted travel expense reports to St. Louis Accounting
   Services for follow-up review.

We recommend the vice president, Controller:

2. Update and include specific language in Handbook F-15, Travel and Relocation,
   advising employees to decline the merchant’s offer to convert foreign currency to
   U.S. dollars.

Management’s Comments

Management agreed with the findings and recommendations and will update the
eTravel system to have resubmitted travel expense reports automatically returned to
St. Louis Accounting Services. The planned action is scheduled for implementation by
July 31, 2014. In addition, management will update Handbook F-15 by June 30, 2015,
to encourage international travelers to decline a merchant’s offer to convert foreign
currency to U.S. dollars. See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
their corrective actions should resolve the issues identified in the report.




                                                     4
Fiscal Year 2013 Postal Service Financial Statements Audit –                                           FT-AR-14-009
 St. Louis Accounting Services


                                 Appendix A: Additional Information

Background

St. Louis Accounting Services is one of three accounting services of the Postal
Service.14 Its employees are responsible for accounting functions related to money
orders, real property, transportation, international mail, field sales, and accounts
payable.15 Employees at this facility also process financial and accountability data from
field units. The Postal Service’s Financial Testing Compliance group examines key
financial reporting controls.

With regard to travel, Postal Service employees use a web-based system, eTravel, to
create travel expense reports to get reimbursed for their travel expenses. The eTravel
system automatically selects all international expense reports and expense reports
greater than $15,000, as well as a 1 percent random selection of other expense reports
for initial accounting review. As part of that review, St. Louis Accounting Services’
personnel match each expense from the travel expense report to supporting
documentation. Any exceptions are resolved with the submitter of the expense report.
Accounting personnel will then change the approval status from "accounting review" to
"approved" in the eTravel system for the expense reports to be paid.

When an employee travels to a foreign country and uses a government travel card to
make a purchase in foreign currency, the merchant or Visa converts the foreign amount
to U.S. dollars. Visa transmits the converted amount to Citibank, which then transmits it
to the eTravel system. The converted amount includes the standard 1 percent service
fee Visa charges for processing foreign transactions. It could also include a fee the
merchant charges for converting transactions from foreign currency to U.S. dollars.

We have issued separate financial statements audit reports for Eagan Accounting
Services16 and headquarters.17 We will issue a separate report for San Mateo
Accounting Services. Further, in addition to the overall opinions on the Postal Service’s
financial statements and internal controls over financial reporting, the Board’s IPA
issued a separate report on its consideration of the Postal Service’s internal controls
and its test of compliance with certain provisions of laws, regulations, contracts, and
other matters. The purpose of that report was to describe the scope of testing of internal
controls over financial reporting and compliance and the results of that testing, not to
provide an opinion on internal controls over financial reporting or on compliance.18 The
OIG will also issue a separate report for the audit of the FY 2013 information system

14
   Other accounting services are in Eagan, MN and San Mateo, CA.
15
   Includes accounting for rents and leases, contract stations, uniform allowance, indemnity claims, tort claims, and
travel (eTravel).
16
   FY 2013 Postal Service Financial Statements Audit – Eagan Accounting Services (Report Number FT-AR-14-006,
dated February 24, 2014).
17
   FY 2013 Postal Service Financial Statements Audit – Washington, D.C. Headquarters (Report
Number FT-AR-14-007, dated February 21, 2014).
18
   In addition to the IPA’s work, these reports encompass work the OIG performed at headquarters, the three
information technology/accounting services sites, and the Raleigh, NC Information Technology Service Center
(ITSC).

                                                          5
Fiscal Year 2013 Postal Service Financial Statements Audit –                                              FT-AR-14-009
 St. Louis Accounting Services


controls at the Eagan, San Mateo, and St. Louis information technology and accounting
service centers; and the Raleigh ITSC.

Objectives, Scope, and Methodology

The objectives of the audit were to determine whether St. Louis Accounting Services:19

    Accounting transactions were fairly stated in the general ledger, and selected key
     controls surrounding those transactions were designed and operating effectively.

    General ledger account balances conformed to the general classification of accounts
     on a basis consistent with that of the previous year.

    Complied with laws and regulations that have a direct and material effect on the
     financial statements taken as a whole.

In addition, we determined whether the Financial Testing Compliance group properly
tested, documented, and reported its examination of key financial reporting controls.

As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. The OIG originated independent audit tests and repeated key control
tests originally completed by the Postal Service. We conducted this audit from
November 2012 through March 201420 in accordance with the standards of the Public
Company Accounting Oversight Board and the standards applicable to financial audits
contained in the Government Auditing Standards issued by the comptroller general of
the U.S. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to limit audit risk to a low level that is, in our professional
judgment, appropriate for supporting the overall audit opinion on financial statements.
Those standards also require that we consider the results of previous engagements and
follow up on known significant findings and recommendations that directly relate to the
audit objectives. An audit also requires a sufficient understanding of internal controls to
plan the audit and determine the nature, timing, and extent of audit procedures to be
performed. We believe the evidence obtained provides a reasonable basis for our
conclusion based on our audit objectives.

We supported the IPA in obtaining reasonable assurance that the financial statements
were free of material misstatements (whether caused by error or fraud). Absolute
assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with the Public
Company Accounting Oversight Board (PCAOB) and Government Auditing Standards
may not detect a material misstatement. However, external auditors and the OIG are
responsible for ensuring that appropriate Postal Service officials are aware of any
significant deficiencies that come to our attention. We discussed our observations and

19
   The IPA maintains overall responsibility for testing and reviewing significant St. Louis Accounting Services'
accounts and processes. The OIG coordinated audit work with the IPA to ensure adequate coverage.
20
   The scope of our audit was October 1, 2012 through September 30, 2013.

                                                           6
Fiscal Year 2013 Postal Service Financial Statements Audit –                                        FT-AR-14-009
 St. Louis Accounting Services


conclusions with management on February 18, 2014, and included their comments
where appropriate.

We relied on computer-generated data from Postal Service financial systems, including:

    Accounting Enterprise Data Warehouse (EDW) Reporting.21
    eTravel.

To assess the reliability of these systems’ data, we performed specific internal control
and transaction tests, including tracing selected financial information to supporting
source records, for testing originated by the OIG. For example, we traced general
ledger transactions from EDW to supporting documentation. We determined that the
data were sufficiently reliable for the purposes of this report.




21
  A reporting technology in the areas of accounts payable, complement, finance number control master, general
ledger and financial performance, payroll summary, property and equipment, and standard accounting for retail.

                                                        7
Fiscal Year 2013 Postal Service Financial Statements Audit –                                                     FT-AR-14-009
 St. Louis Accounting Services


Prior Audit Coverage

                Report Title                       Report Number                   Final                  Monetary
                                                                                  Report                   Impact
                                                                                   Date
     Fiscal Year 2012 Postal             FT-AR-13-005                           12/17/2012
                                                                                  None
     Service Financial Statements
     Audit – St. Louis Accounting
     Service
     Report Results:
     We did not propose any adjustments; however, throughout the year, we reviewed
     internal controls over financial reporting and identified control deficiencies
     regarding domestic air mail irregularities, travel expense reimbursements and
     travel card usage, and international mail. We communicated these issues to
     management through interim reports. Accordingly, we did not propose
     recommendations in this report.


     Fiscal Year 2011 Postal                        FT-AR-12-010                  1/18/2012                $861,075
     Service Financial Statements
     Audit – St. Louis Information
     Technology and Accounting
     Service Center
     Report Results:
     We did not propose any adjustments; however, throughout the year we reviewed
     internal controls over financial reporting and identified control deficiencies
     regarding inbound international mail, money order adjustments, lease appraisals,
     and lease checklists. In addition, we found that Financial Control and Support
     (FCS) personnel22 did not provide sufficient working paper evidence for the OIG to
     determine whether our results were consistent for establishing accountability for
     highway contract modifications and adjustments. Because these controls are
     considered key,23 any error could impact the IPA’s opinion on internal controls over
     financial reporting. Management agreed in part with our only recommendation
     pertaining to lease appraisals and lease checklists, which was not a significant
     recommendation.




22
  FCS management review specialist.
23
  A key control is a control that, if it fails, there is at least a reasonable likelihood that a material error in the financial
statements would not be prevented or detected timely.

                                                                8
Fiscal Year 2013 Postal Service Financial Statements Audit –    FT-AR-14-009
 St. Louis Accounting Services


                            Appendix B: Management’s Comments




                                                     9
Fiscal Year 2013 Postal Service Financial Statements Audit –   FT-AR-14-009
 St. Louis Accounting Services




                                                    10
